HHS/OIG-Audit--"Validation Review of the Hospital Minimum Data Set of the Health Care Provider Cost Report Information System, (A-07-92-00500)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Validation Review of the Hospital Minimum Data Set of the Health Care Provider
Cost Report Information System," (A-07-92-00500)
February 9, 1993
Complete
Text of Report is available in PDF format (1.62 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report provides the results of our "Validation Review of
the Hospital Minimum Data Set of the Health Care Provider Cost Report Information
System." The purpose of our review was to determine the accuracy of the hospital
Minimum Data Set and to inform users to the degree of reliance that could be placed
on the data. Overall, we found MDS was well maintained and managed, and that the
current error rate should be acceptable to most MDS users.